Supreme Court, U.S.
FILED

JUL 2 7 2020
OFFICE OF THE CLERK

20-£33
No.

IN THE

Supreme Court of tfje fHntteb States
IN RE XIAOHUA HUANG’S PATENT
INFRINGEMENT LITIGATION
XIAOHUA HUANG PRO SE
Petitioner,
V.
HUAWEI TECHNOLOGY LTD.
Respondents.
On Writ of Certiorari to the United States Court of
Appeals for the Federal Circuit and the US District
Court of Eastern Texas

PETIONFOR A WRIT OF CERTIORARI

Xiaohua Huang pro se
P.O. Box 1639, Los Gatos,
CA95031 Tel: (669)273 5650
xiaohua_huang@hotmail.com

July25,2020

im

n ii lf$\i m$ kHd
^ a m a ajMII

)

QUESTION PRESENTED
U.S. court of appeals for the Federal Circuit has entered
a decision in this case in conflict with the decision of U.S.
Court of appeals for the Federal Circuit on same claim
preclusion matter as in case ACUMED LLC v. Stryker Corp.,
525 F.3d 1319 (Fed. Cir. 2008). The devices accused in this
case are “essentially different” from the devices accused in the
previous case, but the District Court and US Court of Appeal
for the Federal Circuit merely took Huawei Technology’s
fraudulent statement that the “devices in two case are same”
without any analysis and comparison to the devices accused in
the two cases.
United States court of appeals for the Federal circuit has
so far departed from the accepted and usual course of judicial
proceedings, as to call for an exercise of this Court’s supervisory
power. US Court of Appeal for the Federal Circuit and the US
District Court of Eastern Texas have systematically
prejudiced pro se Plaintiff and only took Huawei Technologies’
perjured declaration and fraudulent statement to set Huawei
Technologies free from paying $billions in the United States for
its infringing US patents, and further more sanctioned me
$600K to pay Huawei attorney’s fee based on Huawei’s perjured
declaration.
United States court of appeals for the Federal Circuit
has decided an important federal question in a way that
conflicts with relevant decisions of this Court. Rather than
sanctioning Huawei’s conduct of making perjured declaration,
fraudulent Statement and hiding information United States
Court of Appeals for the Federal Circuit and US District Court
of Eastern Texas only took Huawei’s perjured declaration,
fraudulent statement and ignored the evidence produced by pro
se Plaintiff to set Huawei free from being sanctioned for its
perjury and hiding the true information, which is in contradict
l

with this Court’s decision in the case “Goodyear Tire & Rubber
Co. v. Haeger, 137 S. Ct. 1178, 1186 (2017)”.

ii

PARTIES TO THE PROCEEDINGS
Petitioner Mr. Xiaohua Huang was the plaintiff in the
district court and the appellant in proceedings before the
Federal Circuit.
Respondents Huawei Technology Ltd.
was defendants in the district court and Appellee in
proceedings before the Federal Circuit.
LIST OF PARTIES AND RULE 29.6 STATEMENT
Petitioner Xiaohua Huang is an individual, pro se. is the
owner of US patent 6744653, 6999331 and RE45259.
Respondent is Huawei Technology Ltd. which sold networking
switches and Routers containing Ternary Content Addressable
Memory (TCAM) infringing US patents 6744653, 6999331 and
RE45259 in the United States.

in

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES AND RULE 29.6 STATEMENT...iii
OPINION BELOW

1

JURISDICTION

1

INTRODUCTION

1

STATEMENT OF THE CASE

4

SUMMARY OF ARGUMENT

.14

ARGUMENT

15

1. CASE SHOULD NOT BE BARRED BY CLAIM
PRECLUSION TO CASE1,THE DEVICES IN CASE 2 ARE
ESSENTIALLY DIFFERENT FROM THE DEVICES IN
CASE 1
15
2. THE DISTRICT COURT ABUSED DISCRETION AND
INVOLVED “FRAUD ON THE COURT” IN CASE 1 AND
CASE 2
20
Conclusion
29
Proof of Service

30

IV

1
OPINION BELOW
Opinion below includes:
The denial to Petition for Writ of Mandamus on February
28, 2020, the denial to Petition for rehearing en banc on
December 18, 2019, the opinion by the panel of the US Court of
Appeal for the Federal Circuit on Octoberl9, 2019 and the U.S.
District Court of Eastern Texas in the order Dkt. No. 78, 65, 64,
52, 48, 34 and 28. Opinions below are incorporated in Appendix
Volume I (Appxl-2, 11-16, 101-122).
JURISDICTION
This Court has jurisdiction under 28 U.S.C. §1254(1).
INTRODUTION
Plaintiff Mr. Huang is the owner of U.S. Patent Nos. RE
45,259, 6,744,653, and 6,999,331. These patents relate to
ternary content-addressable memory (“TCAM”) technology in
the semiconductor chip field. TCAM is a type of memory that
can achieve high-speed routing and switching in networking
devices. In the year of 2000 Mr. Huang found CMOS Micro
Device Inc. (CMOS) in California to develop TCAM. During the
year 2000 to 2002 Plaintiff Xiaohua Huang invented the
advanced design of content addressable memory (TCAM),
Huang’s invention makes TCAM up to hundreds of time faster
than the other TCAM design with much lower power
consumption, which have increase the speed of Internet Router
and Switches several hundreds of times, the invention were
granted as US patent 6744653, 6999331 and RE45259 (“patentin-suit”). Defendant Huawei Technologies obtained the TCAM
invented by Huang from third parties which stolen Huang's
TCAM designed based on "patents-in-suit", then Huawei
Technologies incorporated the TCAM and chips designed based
on “patents-in-suit” in its high speed internet Routers and
Switches as well as its 3G,4G and 5G base station, and

2
achieved huge business success and generated multi hundreds
billions USD profits over the world, in United States Huawei
generated multi billion USD profits through using the “patentin-Suits”. From 2011 to 2015 Mr. Huang collected adequate
evidence to prove that Huawei technology Ltd has used his
“Patents-in-Suit” in its networking products. In Augustl4, 2015
Plaintiff Mr.Huang filed complaint against Huawei in US
District Court of Eastern Texas for patent infringement and
accused Seven model networking Routers and Switches listed
in Huawei’s website, the case number is 2:15-cv-1413(casel).
On May22, 2016 Huawei had their five employees to declare
that Huawei designed several chips (seven chips) with the
TCAM (infringing the "patent-in-suit”) those chips are not used
in the seven Routers and Switches accused, but used in other
Huawei's networking products. On June 5, 2016 Huang moved
the Court to add about eighty newly found different model
routers, switches and Firewall etc. products which were sold in
both China and USA, most of them contained TCAM to the case.
Magistrate Judge in the District Court denied Huang's motion.
Huang filed case 2:16-cv-946 (case2) to accuse the newly found
more than seventy Routers, Switches and firewall products etc.
Huawei made further perjured declaration that although the
data sheet of the product are read by the "patent-in-suit" but the
real product designed are different from its data sheet.
Magistrate Judge took the perjured declaration of Defendant
Huawei and further made fraudulent statements that all the
evidence proving infringement were not produced during
Discovery( in fact all the factual material evidence proving
infringement were produced prior to the deadline of Discovery),
then recommended to dismiss the case. The District Judge
Gillstrap adopted and confirmed Magistrate Judge’s
recommendation. Plaintiff Mr. Huang filed Appeal to the US
Court of Appeal for the Federal Circuit on easel. Under Huawei
Counsel's instruction Magistrate Judge Roy Payne sanctioned

3
Plaintiff Mr. Huang to pay $600K to Defendant Huawei’s
attorney fees and costs completely based on Defendant Huawei’s
perjured declaration and Magistrate Judge Payne’s own
fraudulent statements, which are contradicted to the factual
material evidence. Magistrate Judge also have the case2
STAYed. The panel in the US Court of Appeal for the Federal
Circuit only took Huawei’s perjured declaration and Magistrate
Judge Roy Payne’s fraudulent statement and affirmed the
District's decision even the Panel admitted that the
authenticated evidence proving infringement was produced one
day prior to the deadline of the Discovery. Then Magistrate
Judge dismissed the case 2 with the claim preclusion to easel.
In fact the more than seventy model Switches, Routers and
firewall products (devices) in case2 are different from the seven
devices in easel in the following :
(1). the more than seventy products in case2 have different
model name and different function and structure from the
seven devices in case 1.
(2) Some of the more than seventy products case 2 contain
TCAM which infringes "patent-in-suit" while the seven devices
in case 1 contain NO TCAM as declared by Huawei.
Defendant and the District Court never proved that the
Structure of the more than seventy devices in case2 are
"essentially the same" with the seven devices in case 1, and
just simply stated that that devices are "essentially the same".
Huang proved clearly that one of the device in case2 (N5000E
Router contains the TCAM chips, which are essentially
different from the seven devices in case 1 which contain NO
TCAM based on Huawei's declaration. (Appx333-335)
Also the firewall product in case2 are not accused in
casel(Appx637-638)
The panel of US Court of appeal for the Federal Circuit

4
only took all the fraudulent statement of the District Court and
Defendant Huawei, completely ignored Huang' proof and
analysis that the devices in case 2 are essentially different from
the easel and affirmed the District Court's decision.
The decision of both District Court and US Court of Appeal
for the Federal Circuit is in contradict with the previous
decision of US Court of Appeal for the Federal Circuit on the
similar patent case related Claim preclusion (ACUMED LLC v.
Stryker Corp., 525 F.3d 1319 (Fed. Cir. 2008)).
STATEMENT OF THE CASE
I. Case 2:15-cv-1413 (case 1)
In 2000 Mr. Huang found CMOS Micro Device Inc.
(CMOS) in California to develop TCAM. TCAM is a type
of memory that can achieve high-speed routing and
switching in networking devices. Huang’s invention makes
TCAM three to hundreds of time faster than the other
TCAM design with lower power consumption. Netlogic
Microsystems Inc. stolen the TCAM design which was
patented in US patent RE45259, Silicon Design Solution
Inc.(SDS) (acquired by eSlicon Corporation) stolen the
TCAM design which was patented in US patent 6744653
and 6999331.
In 2011 Plaintiff Mr. Huang found that Defendant
Huawei's fully owned chip company "HiSilicon" licensed TCAM
from eSilicon corporation, the TCAM datasheet of eSilicon read
the claims of US patent 6744653 and 6999331.(Appx512-522)
Huang also found that most Huawei's switches and Routers
used TCAM chips of Netlogic Microsystems Inc. From 2011 to
2015 Mr. Huang did reverse engineering of several TCAM
chips of Netlogic Microsystems Inc. the extracted layout and
schematics of the chips in “Reverse engineering drawing
description” (Appx523-545,698-746) read the claims of US
patent RE45259.

5
Based on the pre-litigation findings Huang filed “Huang v.
Huawei Techs. Co., 2:15-cv-1413-JRG-RSP (E.D. Tex. Aug. 14,
2015)” (“Case 1”) with evidence that the TCAM used in
Huawei’s chips and TCAM chips used in Huawei’s Switches and
Routers infringed US patent 6744653,6999331 and RE45259
(Appx501-545). Mr. Huang accused SEVEN Huawei’s devices
listed in www.huawei.com in easel:
NE40E-X16A/X8A High end Universal Service Router;
NE40E-X1/X2
M Series Universal Service Router ;
S9300 Series Terabit Routing Switches;
S9700 Series Terabit Routing Switches;
S12700 Series Agile Switches;
S6300 Switches.
CloudEngine 12800 series switches
In May 10, 2016 Plaintiff Mr. Huang met a Lawyer Betty
near Marshall Texas who referred Mr. Huang to two Lawyers
Dan and his partner in Los Angeles, California. Dan offered to
represent Mr. Huang to settle $5 million for his three patents
(Appx428-436). During the meeting in LAX airport Dan claimed
that their partner Local Counsel Betty knows Judge Gilstrap
very well and signed up hundreds of patent cases in TXED each
year. Plaintiff Mr. Huang obtained evidence that Huawei’s
3G,4G networking products all used his patents and Huawei’s
5G networking products will have to use his patents, that
Huawei has used his patents and generated multi-billion USD
profits in USA and hundreds of billion USD profit worldwide
and would generate more profit in the future. Mr. Huang
collected reverse engineering evidence and does not feel good for
a 5 million quick settlement, then Plaintiff Mr. Huang said he
wants to litigate the case by himself since he has got reverse
engineering data to prove the infringement. Dan said: “just by
you Judge Gilstrap by all means will not let the Company such
as Huawei to transfer their money to your account. Judge does
not understand your patent and will judge you lose.” Plaintiff

6
Mr. Huang said: “I can appeal to the federal circuit.” Dan said:
“you should not expect that Judges in the Federal circuit will
reverse the Order of Eastern Texas for a pro se litigant.” Later
Plaintiff Mr. Huang said that he wants to finish claim
construction brief by himself before retaining them.
On May 23, 2016 Huawei filed Fed.R.Civ.P. 11 motion
(Dkt.52) (Appx583-619) and used their 5 employees to declare
that Huawei’s division HiSilicon designed 7 model numbers of
ASIC chips using the TCAM IP licensed from eSilicon,
SD XXNol, SDXXNo2, SDXXNo3, SDXXNo4, SDXXNo5,
SDXXN06, SDXXNo7. The XXNos are redacted. Huawei has
not used any those 7 models ASIC chips containing TCAM IP in
the SEVEN Huawei products which have been accused in case 1,
but used those 7 models of ASIC chips containing TCAM in
other Huawei’s networking products.
Around May 26, 2016 Mr. Huang found a commerce website
https://e.huawei.com. The two website https://e.huawei.com/cn/
(China) and https://e.huawei.com/us/ (USA) lists entire more
than 80 identical Huawei’s networking products, which are sold
both in China and USA respectively (Appx628-639). That
means, except the SEVEN accused products, based on Huawei’s
declaration, that some products of the more than 80 products
listed in website https://e.huawei.com use some of the those 7
models of ASIC chips (designed by HiSilicon) using the TCAM
IP licensed from eSilicon. Then Mr. Huang moved the Court for
leave to add 70 more newly found products to easel in
Dkt.No.58. Mr. Huang produced the good cause in Dkt.59 and
74 with Exhibit O and P which proved that some of newly found
70 more products to be added contains the TCAM IP infringing
US patents and sold in the USA. Judge Payne denied Huang’s
motion to add newly found 70 more products, and has the case
STAYed for two month for Mr. Huang to retain Lawyer.
(Appx622-652). On September 29, 2016 Defendant-Appellee
Huawei filed motion for Summary Judgment of non-

7
infringement in Dkt.105 of easel. Huawei further declared that
the TCAM licensed from eSilicon are different from the content
of the datasheet. Huwei made perjured declaration to abuse
and manipulate the US legal systems. On October 17, 2016 Mr.
Huang produced evidence and independent expert’s declaration
and expert report to prove the SEVEN products of Huawei’s
infringement to US patent No. RE45259 (Appx654-746). On
November 22, 2016 Judge Payne made erroneous statement
that Plaintiff-Appellant Mr. Huang’s evidence were not
produced during the Discovery. In fact those evidence were
produced before the deadline of the Discovery November 17,
2016, Judge Payne stroke all the factual material evidence
produced by Mr. Huang and recommend to District Court to
grant Defendant Huawei’s motion of non-infringement in
Dkt.134 (Appxl41-143). The district court adopted Dkt.134 and
granted Defendant Huawei’s motion to dismiss Plaintiff Mr.
Huang’s claim erroneously. As pointed out by District Judge J.
Owen Forrester in Sklar v. Clough, 2007 U.S. Dist. LEXIS
49248 (N.D. Ga. July 6, 2007), "a district court may 'consider a
hearsay statement in passing on a motion for summary
judgment if the statement could be reduced to admissible
evidence at trial or reduced to admissible form'" (citation
omitted).
On January 18, 2017 Plaintiff-Appellant filed motion
Dkt.170 and asked the Court to file the perjury charges
against Defendant-Appellee Huawei’s witness with evidence
support. On January 19, 2017 Magistrate Judge denied
Plaintiff-Appellant’s motion and stated “Mr. Huang has no
authority nor basis to charge Huawei with perjury.” in
Order Dkt.No.172.
On January 31, 2017 Defendant-Appellee Huawei filed
motion for attorney fees in Dkt.179 based on its internal
counsel’s perjured declaration of forged telephone conversation.
In Dkt.184 and its exhibits Plaintiff-Appellant Mr. Huang

8
proved that Defendant- Appellee’s internal Counsel made
perjured declaration and has very bad faith (Appx847-893).
One of Huawei’s Counsel Scott W. Breedlove worked in
Leon Carter’s firm for many years, then left Carter’s firm to join
Vinson & Elkins in Dallas and worked in the same Law firm
office with Mr. Stephen Gilstrap (Mr. Stephen Gilstrap is Son
of Judge Gilstrap ) for several years, then returned back to
Carter’s firm to represent Huawei in case 1, then attend the
Hearing on March 8, 2017. In the Hearing of March 8, 2017
Huawei Counsel Leon Carter said to Judge Payne: “Let him
■ (Huang) pay money.” Judge Payne replied: “He does not have
Money.” This part was omitted in the transcript. This
conversation showed that Leon Carter was in an advanced
position able to command Judge Payne. On March 27, 2017 in
Order 204 Judge Roy Payne used erroneous statement and “he
(Mr. Huang) did not want to share revenue with a lawyer.”
(Appxl33) as cause and took perjured declaration of DefendantAppellee Huawei and granted Defendant’s motion for attorney’s
fee and expert costs despite the factual material evidence
In the Hearing of March 8, 2017 Plaintiff-Appellant Mr.
Huang firmly stated the evidence that he did adequate pre­
litigation investigation and collected adequate evidence to
prove Defendant-Appellee Huawei infringed “patent-in-suits”
and during the case he is in good faith and has proved firmly
that Defendant-Appellee Huawei infringed the “patent-insuit”. On March 27, 2017 Magistrate Judge Roy Payne made
erroneous statement and took perjured declaration of
Defendant-Appellee Huawei in Order 204 and granted
Defendant’s motion for attorney’s fee and expert costs despite
the factual material evidence Plaintiff-Appellant produced in
Dkt.184-185, Dkt.193-194. Despite Plaintiff-Appellant Mr.
Huang’s factual material evidence produced and referred in
Dkt. 211, in Order 212 the District Judge Gilstrap confirmed
Magistrate judge’s Order of Dkt.204 and threaten that “if Mr.

9
Huang files another paper on record in this Court making
unsupported allegations of perjury or fraud, directed to any
party or the Court, he will be required to appear for a show
cause hearing to determine whether additional sanctions are
appropriate.” Then Magistrate Judge granted the attorney’s
fee in Dkt.213. In Dkt. 216 and 217 Plaintiff-Appellant Mr.
Huang further proved that Defendant-Appellee Huawei made
perjured testimony with evidence support, Order204 and
Order212 only based on Defendant-Appellee Huawei’s
perjured testimony contrary to the factual material evidence
produced in Dkt.184-185,193-194,211,216 and 217. But the
District Judge Gilstrap ignored the evidence PlaintiffAppellant Mr. Huang produced in Dkt. 184-185,193-194,
211,216 and 217(Appx847-949), overruled in Order 218.
The Transcript of Hearing on March 8,2017 which was
produced by Court reporter on June 6,2017, proof read and
filed into ECF system as Dkt.230 by Mr. Huang on July 7,
2017 proved that the statement in Order 212 are clearly
erroneous.
II. Case 17-1505
Mr. Huang appealed the district court’s decision of case
2:15-cv-1413 to Federal Circuit in case 17-1505, the Panel took
Huawei’s perjury and Judge Payne’s fraudulent statement as
evidence and made further erroneous statement that “Mr.
Huang did not do any pre-litigation investigation” and “he (Mr.
Huang nevertheless did not want to share revenue with a
lawyer”. Although the Panel admitted that Mr. Huang produced
the witness declaration, expert report and reverse engineering
data prior to the deadline of Discovery in case 2:15-cv-1413, but
the Panel chose to affirm the district court’s decision. (Appx30).
III. Case 2:16-cv-947(case2)
On August 26, 2016 Plaintiff-Appellant Mr. Huang filed case
2:16-cv-947 (case 2) against Huawei to accuse the newly found

10
70-80 products which contain some of the 7 models of ASIC chips
containing TCAM from eSilicon and TCAM chips.(Appx 300-322).
NetEngine20E-S Series Universal Service Routers
NE05E/08E Series Mid-range Service Routers
NetEngine5000E Cluster Routers

S7700
S6700
S6720
http://e.huawei.com/us/products/enterprise-networking/switches
CloudEngine 8800 series switches
CloudEngine 7800 series switches
CloudEngine 6800 series switches
CloudEngine 5800 series switches
CloudEngine 1800V series switches
http ://e. huawei.com/us/products/enterprise networking/switches/campus-switches
S5720-HI
S5720-EI
S5720-SI
S5700-EI
S5700-SI
S5700-LI
S3700
S2700
http ://e. huawei. com/us/products/enterprise networking/switches/soho- smb - switches
S1700.
http://e.huawei.com/us/products/enterp rise-networking/routers
AR1 60-M Series Agile Gateways
ARSOO Series Agile Gateways
AR510 Series Agile Gateways
AR530 Series Agile Gateways
ARSSO Series Agile Gateways

11
AR3600 Series Agile Gateways
AR3200 Series Enterprise Routers
AR2200 Series Enterprise Routers
AR1200 Series Enterprise Routers
AR120/150/160/200 Series Enterprise Routers
AtomEngine Series Products
http://e-huawei.com/us/products/enterprise-networking/wlan
AC6005 Access Controller
AC6605 Access Controller
ACU2
http://e-liuawei.com/us/products/fixed-network/transport
Optix OSN9800
OPtix OSN8800
OPtix OSN1800-V
OPtix 0SN1 800
Optix PTN7900
Optix PTN3900
OPtix PTN1900
OPtix PTN900
MSTP platform
http://e-huawei.com/en/products/fixed-network/ access
SmartAX MA5620
SmartAX MA5621
SmartAX MAS 800
SmartAX MA5680T
http ://w ww. huawei. com/us/products/fixed- access/index, htm
MA5800 Series OLT
MA5800 Series OLT
HG8240
http://e-huawei.com/us/products/enterprisenetworking/securitv/firewall-gatewav
USG6600
USG6650
USG6300

12
USG6000V
NIP6000
NIP6000D
NIP6000VN5600/5800
ASG2000
USG2110
USG5100BSR
USG2000BSR
NIP2000/5000
WAF2000
http://e.huawei.com/us/products/wireless/elte-access
eA660 CPE
eA360CPE
DBS3900
eCN600
eCN610
eCNS210
eSCN230
http://carrier.huawei.com/cn/products/fixed-network/access
OLT
MXU
http://carrier.huawei.com/cn/products/fixed-network/carrier-ip
SIG9800
SNC
VcmS020,vcmS010, vcn3010,vcn3020
SmartAX MAS600T
SmartAX MAS800 Series OLTs
UASOOO Multi-Service Access Platform
SmartAX MAS620 Series Fiberoptic MDUs
USG6300, USG6600,USG9SOO,NIP6000
Based on Huawei five employees declaration that the seven
products in easel do not contain the TCAM, but some of the
above more than 70 devices in case2 contain the TCAM, TCAM is
the core to infringe the "patent-in-Suit".

13
The more than 70 devices (products) accused in the above
case2 are different from the seven devices accused in easel. The
first three group products NE series routers, S series Switches
and CE series Switches are related products to the corresponding
products in casl, but is different in model numbers, structures
and applications. The price of CE12800 data center Switch in
easel is over $100K, but the CE6800 Switch accused in case2 is
only $8K. The NE40 router is Universal service Router in easel,
the NE5000E is the cluster router.
The other devices accused in case2 are completely different
from the seven devices accused in c asel. AR3600 Series Agile
Gateways, USG6600 series Firewall products, eA660 CPE and
eCN600 series wireless access products etc. in the above case2
are completely unrelated to the Routers and Switches accused in
easel.
One of 70 products accused in case 2 is Huawei’s NE5000E
Router which contains TCAM chips of Netlogic Microsystems Inc.
and ASIC chips ( SD587 and SD587i )using TCAM IP from
eSilicon (Appx333-335). Both TCAM IP from eSilicon and TCAM
chips of Netlogic Microsystems Inc. read the claims of‘331patent,
‘653patent and ‘259patent with evidence of reverse engineering
data and data sheet.
Magistrate Judge Payne canceled the initial case meeting
for case 2:16-cv-947 and instructed Huawei to file motion for
summary judgment. Huawei filed motion for summary
judgment Dkt.40 of 2:16-cv-947 to dismiss the case 2:16-cv-947.
Mr. Huang responds in Dkt.41. Magistrate STAYed the case
2:16-cv-947. On January, 2019 Magistrate reactivated case
2:16-cv-947,Judge Payne did not compare the devices accused in
case2 with the devices accused in easel and just granted
Huawei’s motion to dismiss case 2 with the cause claim
preclusion.
Plaintiff Huang filed appeal to US Court of Appeal for the
Federal Circuit in March 25, 2019.

14
Case 19-1726.
Huang appealed to US Court of Appeal for the Federal
Circuit, then the Panel of Federal circuit just took Huawei's
fraudulent statement and the fraudulent statement of the
District Court and never analyze the devices accused in the two
case, then affirmed the district Court’s decision.
Huang filed appeal for rehearing, which were simply
denied.
SUMMARY OF ARGUMENT
1. the decision on this case (case2) is in contradiction with
the decision of case ACUMEDLLC v. STRYKER case No. 20071115 of United States Court of Appeals for the Federal Circuits
(Acumed LLC v. Stryker Corp., 525 F.3d 1319, 1326)
(Fed.Cir.2008). District Court use easel as claim preclusion to
dismiss the case2. Most of the more than 70 devices accused in
case2 are “essentially different” from the seven devices accused
in easel. The decision of US court of appeal for the Federal
circuit and the District Court are erroneous and in
contradiction with the previous decision of US Court of Appeal
for the Federal circuit, ninth circuit and this court on the
same(similar) patent case.
2. the easel is involved in "Fraud on the Court" in terms
that the decision of the district court are based on Huawei's
perjured decision and the fraudulent statement of the Court
biased by Huawei's attorney who is related to the District
Judge and that Huang did not retain the lawyers who are
related to the District Judges and the Judges in the Federal
circuit did not correct the mistakes made by the District Court
with the cause that Huang did not share the revenue with a
lawyer.
ARGUMENT

1. CASE SHOULD NOT BE BARRED BY CLAIM

15
PRECLUSION TO CASE1, THE DEVICES IN CASE2 ARE
ESSENTIALLY DIFFERENT FROM THE DEVICES IN
CASE 1
Under the doctrine of claim preclusion, "a judgment on the
merits in a prior suit bars a second suit involving the same
parties or their privies based on the same cause of action."
Parklane Hosiery Co. v. Shore, 439 U.S. 322, 327 n. 5, 99 S. Ct.
645. 58 L. Ed. 2d 552 (1979).
To the extent that a case turns on general principles of
claim preclusion, as opposed to a rule of law having special
application to patent cases, Acumed LLC v. Stryker Corp., 525
applies the law of the Ninth Circuit. See Media Tech. Licensing,
LLC v. Upper Deck Co., 334 F.3d 1366. 1369 (Fed.Cir.2003).
The Ninth Circuit applies claim preclusion where: "(1) the same
parties, or their privies, were involved in the prior litigation, (2)
the prior litigation involved the same claim or cause of action as
the later suit, and (3) the prior litigation was terminated by a
final judgment on the merits."
Whether a claim in patent infringement case to be barred
by res judicata (claim preclusion) are further specified in
ACUMEDLLC v. STRYKER case No. 2007-1115 of United
States Court of Appeals for the Federal Circuits (Acumed LLC v.
Stryker Corp., 525 F.3d 1319, 1326 (Fed.Cir.2008). “[0]ne of
the essential transactional facts giving rise to a patent
infringement claim is ‘the structure of the device or devices in
issue. Therefore, ‘[CJlaim preclusion does not apply unless the
accused device in the action before the court is “essentially the
same”. The party asserting res judicata has the burden of
showing that the accused devices are essentially the same.
The panel decision and the district court abuse the
discretion since Defendant Huawei, the panel of Federal Circuit
and the District Court never produce any evidence, analysis
and comparison to prove the devices accused in case 1 is
> >5

16
“essentially the same” to the devices accused in case 2. Both
the district court and Panel decision merely just make
erroneous statement that “the Case 2 chips are essentially the
same as the Case 1 chips for purposes of claim preclusion. 1”
without any evidence and analysis proof of the chips. It will be
addressed that the TCAM chips used in the devices accused in
case 1 are NOT essentially same to the TCAM chips used in the
devices accused in case 2 .
Case 1 and case 2 claimed that “the TCAM licensed from
eSilicon and TCAM chips of Netlogic/Broadcom” used in
Huawei’s products infringed US patents 6744653,6999331 and
RE45259. So the nucleus is “TCAM” licensed from eSilicon and
“TCAM chips of Netlogic/Broadcom”.
The fact is that Huawei declared that the Seven products
(devices) accused in the easel did not contain any of 7 ASIC
chips using TCAM licensed from eSilicon while some of the
more than 70 products(devices) accused in case 2 contain some
of 7 ASIC chips using TCAM IP, which makes the devices
accused in case2 are NOT essentially same from the devices
accused in case 1.
It is the TCAM infringing the claim limitation of ‘653
patent and ‘331patent, products (devices) accused in case 1
contain NO ASIC chips using TCAM and the products (devices)
accused in case 2 contain ASIC chips using TCAM, so the
structure of the devices in easel and case 2 are “essentially
different” in terms of reading the claim limitation of the ‘653
and ‘331patents.
In easel only four model TCAM chips: the “KBP sample
chips” (including
IDT75K72234,
IDT75S10020,
IDT75S10010 and
NL9512))
are accused to be used in the seven accused products.

17
In case2 there are total 24 model TCAM chips are accused,
where including four "KBP sample chips" (including
IDT75K72234,
IDT75S10020,
IDT75S10010 and
NL9512)
which were accused in easel.
and Twenty more chips including (not limited to):
NL6000 Family,
NL7000 Family
NL/NLA 9000 Family
NL/NLA 1000 Family
NL/NLA 12000 Family
NLS025,
NLS045,
NLS055,
NLS1005,
NLS1008,
NLS105,
NLS2008,
NLS205,
75K Series,
P1025 NSE chips of Freescale Semiconductor Inc.
Octeon Plux,
Octeon TX,
CN63xx,
CN7xxx,
CNX8xxx of Cavium Inc and the chips of Dune Networks
Inc. (acquired by Broadcom Corporation)
are accused to be used in the more than 70 products.
Beside four chips accused for being used in the Seven
products in easel, there are additional twenty chips are accused
for being used in the more than 70 products in case2.
So the opinion that “the Case 2 chips are essentially the

18
same as the Case 1 chips for purposes of claim preclusion. 1”
used by Federal Circuit is completely erroneous and in
contradiction with the fact. In easel only four chips and seven
products were accused. In case2 twenty additional chips and
more than 70 additional products were accused.
The panel and the district court argue that the easel and
case2 use the same infringement contention and claim chart.
The fact is that all claims of the patents-in-suits are
asserted in two cases there are only seven devices and four chips
were accused in the infringement contention in easel, but there
are additional more than seventy different devices and additional
twenty different chips were accused in case2. The chips and
devices in case2 are essentially different from the chips and
devices in easel, and most of them are read by different claims of
the “patent-in-suit”.
Further more, the devices accused in easel containing NO
ASIC chips using TCAM IP based on Huawei’s declaration, but
the devices accused in case 2 containing ASIC chips using
TCAM IP based on Huawei’s declaration. It is TCAM which read
the claim limitation of the patents, so the structure of the devices
in easel and case 2 are NOT “essentially same” in terms of
reading the claim limitation of the ‘653 and ‘331patents. Case 2
can not be barred by case 1 based on the analysis in Acumed LLC
v. Stryker Corp., 525 F.3d ,1327 (Fed. Cir. 2008).
On May 23, 2016 Huawei used their 5 employees to declare
that Huawei’s division HiSilicon designed 7 model numbers of
ASIC chips using the TCAM IP licensed from eSilicon, SD
XXNol, SDXXNo2, SDXXNo3, SDXXNo4, SDXXNo5, SDXXN06,
SDXXNo7. Huawei has not used any those 7 models ASIC chips
containing TCAM IP in the SEVEN Huawei products accused
in case 1, but used those 7 models of ASIC chips containing
TCAM in other Huawei’s networking products (Switches and
Routers) .(Appx583-619)
Huang found a commerce website https://e.huawei.com

19
lists entire more than 80 identical Huawei’s networking
products, which are sold both in China and USA respectively.
That means, except the SEVEN accused products in case 1,
based on Huawei’s declaration, that some products of the more
than 80 products listed in website httns://e.huawei.com use
some of the those 7 models of ASIC chips (designed by HiSilicon)
using the TCAM IP licensed from eSilicon.
One of 70 products accused in case 2 is Huawei’s NE5000E
Router which contains TCAM chips of Netlogic Microsystems
Inc. and ASIC chips (SD567, SD587 and SD587i) using TCAM
IP from eSilicon (Appx333- 334). NE5000E was not accused in
case 1.
Both TCAM IP from eSilicon and TCAM chips of Netlogic
Microsystems Inc. read the claims of‘331patent, ‘653patent and
‘259 patent based on the evidence of reverse engineering data
and data sheet.
In case 1 Plaintiff Mr. Huang accused four TCAM chip
Model IDT75K72234, IDT75S10020, IDT75S10010 and NL9512
used in seven Huawei’s products. In case 2 Plaintiff Mr. Huang
accused 20 more TCAM chip model NL6000 Family, NL7000
Family, NL/NLA 9000 Family, NL/NLA lOOOFamily, NL/NLA
12000 Family, NLS025, NLS045, NLS055, NLS1005, NLS1008,
NLS105, NLS2008, NLS205, 75K serials and P1025 NSE chips
of Freescale Semiconductor Inc.(part of NXP) used in more than
70 Huawei’s products beside IDT75K72234, IDT75S10020,
IDT75S10010 and NL9512, those TCAM chips were not accused
in easel. Based on reverse engineering data the TCAM chips
accused in case 2 are NOT “essentially same” to the TCAM
chips models accused in case 1. The TCAM chips accused in
case2 do not use dynamic circuit and not infringed the claim 29
of ‘259 patent while the TCAM chip model accused in case 1
used the dynamic circuit and infringed claim 29 of ‘259 patent.
So case 2 can not be barred by case 1 with claim preclusion.

20
2. THE DISTRICT COURT ABUSED DISCRETION AND
INVOLVED “FRAUD ON THE COURT” IN CASE 1 AND
CASE 2
Plaintiff Mr. Huang did adequate pre-litigation and
produced expert report and witness declaration in Dkt. 109 of
easel and its exhibit to prove that accused Huawei’s products
infringed US patents 6744653, 6999331 and RE45259(Appx654746). Judge Payne’s Orders to dismiss case 2:15-cv-1413(casel)
and sanction Plaintiff Mr. Huang to pay Defendant Huawei
$600K are erroneous and an abuse of discretion.
In May 10, 2016 Plaintiff Mr. Huang met a Lawyer Betty
near Marshall Texas who referred Mr. Huang to two Lawyers
Dan and his partner in Los Angeles, California. Dan offered to
represent Mr. Huang to settle $5 million for his three patents
(Appx428-436). During the meeting in LAX airport Dan claimed
that their partner Local Counsel Betty knows Judge Gilstrap
very well and signed up hundreds of patent cases in TXED each
year. Plaintiff Mr. Huang obtained evidence that Huawei’s
3G,4G networking products all used his patents and Huawei’s
5G networking products will have to use his patents, that
Huawei has used his patents and generated multi-billion USD
profits in USA and hundreds of billion USD profit worldwide
and would generate more profit in the future. Mr. Huang
collected reverse engineering evidence and does not feel good for
a 5 million quick settlement, then Plaintiff Mr. Huang said he
wants to litigate the case by himself since he has got reverse
engineering data to prove the infringement. Dan said: “just by
you Judge Gilstrap by all means will not let the Company such
as Huawei to transfer their money to your account. Judge does
not understand your patent and will judge you lose.” Plaintiff
Mr. Huang said: “I can appeal to the federal circuit.” Dan said:
“you should not expect that Judges in the Federal circuit will
reverse the Order of Eastern Texas for a pro se.” Later Plaintiff
Mr. Huang said that he wants to finish claim construction brief

21
by himself before retaining them.
One of Huawei’s Counsel Scott W. Breedlove worked in
Leon Carter’s firm for many years, then left Carter’s firm to join
Vinson & Elkins in Dallas and worked in the same Law firm
office with Mr. Stephen Gilstrap (Mr. Stephen Gilstrap is Son
of Judge Gilstrap ) for several years, then returned back to
Carter’s firm to represent Huawei in easel, then attend the
Hearing on March 8, 2017, where Leon Carter commend Judge
Roy Payne : “let him (Mr. Huang) pay money”. Stephen Gilstrap
and Vinson & Elkins LLP has interest conflict with Judge
Gilstrap in US district Court of Eastern Texas. Huawei’s
Counsel Scott Breedlove has interest conflict with Judge
Gilstrap and District Court.
Case 2:15-cvl413(casel) was dismissed with the cause that
the evidence was not produced during the Discovery, although
the cause is false. On the Order 134 Magistrate Judge Roy
Payne stated: “Mr.Huang highlights several alleged reverse
engineering records, but the Court must GRANT Huawei’s
motion to strike....these records because Mr. Huang failed to
produce them during discovery. Accordingly, it is
RECOMMENDED that Huawei’s motion for summary
judgment be GRANTED.” Judge Payne just lied since all the
evidence produced before October 17, 2016 and before the
deadline of Discovery.(Appxl41-143). By March 8, 2017, two
yeas before the resolution of Appeal to Federal Circuits , the
case 2:16-cv-947 and case 2:15-cv-1513 had proved Huawei’s
infringement to US patent 6744653,6999331 and RE45259. The
District Court Judge Payne STAYed the case 2:16-cv-947 on
March 8, 2017, and never allow the case be reactivated until
January 11, 2019 to deny Mr. Huang’s motion to transfer case
2:16-cv-947 to US District Court of Northern California and
dismiss the case 2:16-cv-947 with the claim preclusion to case
2:15-cv-1413. Judge Payne’s Order to STAY the case 2:16-cv947 is a further abuse of description to further help Huawei to

22
avoid paying the royalty of patent infringement in USA. The
fact is that Plaintiff Mr. Huang appealed to US Supreme Court,
and there is no resolution yet, so the case 2:15-cv-1413 is not
the case which finally lost by plaintiff Mr. Huang. The District
Court abused the discretion again to dismiss the case 2:16-cv947 while case 2:15-cv-1413 is being appealed in the US
Supreme Court.
The case 2:16-cv-947 overcome the cause which the Court
used to dismiss case 2:15-cv-1413 “the evidence were not
produced during the Discovery” which is Judge Payne’s lie and
fraudulent statement. But the Court have the case 2:16-cv-947
STAYed to wait that judgment made on case 2:15-cv-1413 was
confirmed by Federal Circuit, then used the claim preclusion to
dismiss the case 2:16-cv-947. The district court’s decision in
favor of Huawei further proved that the Court is “Fraud is on
the Court”.
On Hearing of March 8, 2017 Plaintiff Mr. Huang argued
that the evidence of reverse engineering was already authentic
by then, that Huawei infringed US patent RE45259 was proved
further by the evidence provided by Broadcom. Plaintiff Mr.
Huang produced adequate pre-litigation evidence and was in
good faith, Huawei’s Counsel was perjured, Mr. Huang should
not be sanctioned for attorney fees. Huawei Counsel Leon
Carter said to Judge Payne: “Let him (Mr. Huang) pay the
money.” Magistrate Judge Payne replied: “He (Mr. Huang) does
not have Money.” This part was omitted in the transcript by the
District Court. This conversation showed that Leon Carter was
in an advanced position able to command Magistrate Judge
Payne, Magistrate Judge Payne’s judgment was commended by
Defendant Huawei Counsel Carter, the district court reporter
deliberately omitted this conversation in transcript. With
evidence support Plaintiff Mr. Huang filed motion Dkt.170 to
ask the District Court to take action on Huawei’s perjured
declaration with evidence support, the District Court denied Mr.

23
Huang’s motion right away with fraudulent cause that Mr.
Huang’s motion has no evidence support. The Court’s conduct
encouraged Huawei Counsel Li and Torkelson to make more
perjured declaration in Motion for attorney fees. Even when
Plaintiff Huang proved Huawei’s declaration is perjured, the
District Courts still took all Huawei Counsel’s perjury as
evidence to grant Huawei’s Motion for money based on Huawei
Counsel’s instruction which proved again what Huawei counsel
Ms. Li said “ they knows Judges very well.”
Order Dkt.204 and the decision of Panel of the Federal
circuit all stated: “he (Mr. Huang) nevertheless did not want to
share the revenue with a lawyer.” ,which seems to be the true
reason of the “Fraud on the Court”. Although admitting that
Plaintiff Mr. Huang produced “Expert report and declaration”
to prove Huawei’s infringement to US patent 6744653, 6999331
and RE45259 before the deadline of Discovery and Mr. Huang
is one expert witness who was disclosed before, the Panel of
federal circuit of case 17-1505 still affirmed Judge Payne’s
decision to dismiss case 2:15-cv-1413 and took Judge Payne’s
lie in Dkt.134 that “Mr. Huang highlights several alleged
reverse engineering records, but the Court must GRANT
Huawei’s motion to strike....these records because Mr. Huang
failed to produce them during discovery. Accordingly, it is
RECOMMENDED that Huawei’s motion for summary
judgment be GRANTED.” ”
In Dkt.71 of case 2:16-cv-947 Defendant Huawei further
moved the District Court to use its inherent power again to
restrict Mr. Huang to appeal to higher level court for the
district Court’s decision of case 2:16-cv-947 and further sanction
Mr. Huang to pay money to Defendant Huawei’s attorney fee.
Huawei also asked Gilstrap to sentence Mr. Huang contempt
the District Court.
3.. THE SANCTION OF ATTORNEYS FEE AND COSTS in
easel IS ERRONEOUS AND WRONGFUL

24
(1). Mr. Huang did adequate pre-suit investigation. This is as
stated in section I of this petition
(2). Plaintiff Mr. Huang has been in good faith during the
litigation.
In his declaration ExhibitX-2 of Dkt.184 of easel Mr. Huang
disclosed the original TCAM design of Fig. 1 of RE45259 patent
sent to Andy Bechtolsheim in 2002 under NDA in page 28-30 of
“Infringement contention” which was sent to Defendant Huawei
on November, 2015. This proved that Huawei s Counsel
Torkelson’s declaration in motion for attorney fee Dkt.179 is
perjured. In “Infringement contention” Huang brought up 20
page layout and schematics in “Reverse Engineering Drawing
Description” Exhibit F of easel. The District Court granted
Defendant Huawei’s motion for attorney fees and expert costs
based on Huawei counsel Pengyan Li’s declaration Dktl79-1
and Huawei Counsel Torkelson’s declaration Dkt. 179-2. Both
Li’s declaration and Torkelson’s declaration were contradicted
to the factual material evidence, they are all perjured. In
declaration of Exhibit X-l and declaration of Exhibit X-2 of
Dkt.184 in easel with factual material support Plaintiff Mr.
Huang denied all the content in the Li’s declaration Dkt. 179-1
and Torkelson’s declarationDkt.l79-2(Appx878-908). The Court
took Huawei Counsel Ms. Li’s perjury as evidence is erroneous.
In spite that with factual material evidence support Plaintiff
Mr. Huang denied Huawei’s perjured testimony Magistrate
Judge Payne made Sanction to Plaintiff Mr. Huang in Order
204 based on Huawei Li’s perjured testimony and in Order 212
the district Judge Gilstrap cited Huawei Li’s perjured
testimony from Order 204 and threaten to Sanction Plaintiff
Huang more if Huang dare to tell the truth that Huawei’s
motion for attorney fee are based on Huawei Counsel’s perjury.
In Dkt.216 Plaintiff Huang proved that Judge Payne’s Order
204 and Judge Gilstrap’s Order 212 are based on their own

25
fraudulent statement and Huawei’s perjury(Appx906-950). By
declaration Huang denied Judge’s fraudulent statement and
Huawei Counsel’s perjury, Pengyan Li’s’s declaration “Mr.
Huang has repeatedly called, emailed, and sent messages to
me seeking payment for dismissal of his lawsuits ...” is
contradicted to fact and perjured. Pengyan Li sent me email on
September 2, 2015 and express intention to talk with me, cited
Li’s email: “We hope you would agree,....Thus, we have more
time to discuss with you facts of the case). When I called
Penyan Li’s cell Phone She asked me How much I want to settle
case. I told her that Huawei needs to make offer. On
Septemberl5, 2015 Li sent me email and asked me: “MAYWE
HAVE A TELEPHONE CALL TODAY.”. On February 5, 2016
Pengyan Li sent me email: “Huawei team intends to discuss
settlement DIRECTLY with you in order to save time and
resource of both side”. On February 15, 2016 Pengyan Li sent
me email, threatened: “Huawei expect that you withdraw the
complaint. ...the settlement amount will be very low, HUAWEI
WILL CONTINUE LAWSUIT TO AVOID MORE
COMPLAINTS AGAINST HUAWEI HAPPENS” “CONTINUE
LAWSUIT” means to have Plaintiff incur costs. On May23,
2016, Pengyan Li sent me email:“ Mr. Huang, Next Month June
7 -13 I will be in Dallas, TX, wonder you would be in Dallas on
that time , if possible , hope to discuss this case with you”. I
proposed lOMillion USD to settle the case at Li’s request.
Huawei Counsel Ms. Li’s emails proved that in her perjured
declaration she put her own conducts on Plaintiff Mr. Huang.
The Judges overlooked those facts. Huawei Ms. Li told me :
“Huawei authorized me to make five digit number offer to you,
as a pro se, the Court won’t allow you go to Jury Trial, Huawei
won’t be taken to the Trial by all means.” On Hearing of July 27,
2016 I had conversation with Judge Payne: MR.HUANG: Your
Honor, Assume court will grant the motion of summary
judgment, I still have one more patent and I will have whole

26

bunch evidence. Can that patent, with evidence, be taken to
trial? THE COURT: Are you talking about the reissue patent?
MR. HUANG: Yes. THE COURT: If summary judgment is not
granted as to all of your patents, then the others would proceed
on and the litigation would continue on toward trial. While
Huawei Ms. Li kept contacting me Huawei’s other Counsels
sent me email and asked me not to talk to Ms. Li. It is Huawei’s
conspired plan to build up “the evidence”. Huawei Li’s
declaration “, he could still file more motions and papers with
the Court, and Huawei will have to reply and incur further
legal fees.” is perjured. That “HUAWEIWILL CONTINUE
LAWSUIT is what Pengyan Li threatened Plaintiff Huang to
have Mr. Huang incur more litigation cost. Huawei benefited
multi-billion USD from using the asserted patents. The royalty
is much higher than its litigation cost. Ms. Li perjured: “He
sued Huawei because one ... told him that it would quickly
settle. He ..sue Huawei on ...representation that Huawei would
pay $1.5 million....” I declared that Huawei Pengyan Li said to
me: “You should hire a lawyer since your patents are very
unique and different from the others who sued Huawei. Your
patents are better solution that others...” Li continued: “Huawei
had hundreds of lawsuits in TXED, known and retained some
lawyers who knows Judges very well. Upon your retaining a
lawyer who knows Judges well Huawei could be willing to settle
up to one and half million with you.” Huawei Pengyan Li said to
me: “Now we are going to retain a law firm well connected to
the Court of Appeal for the Federal Circuits upon your appeal, I
hope you withdraw your appeal, otherwise Huawei is going to
file motion for attorney fees.” Ms. Li perjured: “He did not hire
an attorney because he does not want to share revenue with • a
lawyer.” Magistrate Payne in Order 204 cited as: “Huang said
that he nevertheless decided not to hire an attorney because he
did not want to share revenue with a lawyer”. The Panel’s
proceeding cited: “that he did not want to share revenue with a

27
lawyer,” That “He does not want to share revenue with a
lawyer” should not be the reason to be sanctioned. Why Judges
all cited that? Why Huawei Counsel Li perjured this declaration?
Does this relate to what Huawei Li said “knows Judges well.”
(3). Five motion to compel were all filed with reasonable cause
Prior to filing lawsuit Plaintiff Mr. Huang believed he
collected adequate evidence to prove infringement to Jury Trial
without further information from Defendant Huawei, so Mr.
Huang did not request information from Defendant until
May22, 2016 Defendant Huawei made perjured testimony in
rulellmotion Dkt.52 that no Huawei’s products containing
eSilicon TCAM IP are sold in USA. On July3, 2016 Mr.Huang
sent document production request and asked Defendant
Huawei to provide information including the contract, source
code and product model numbers which contains the seven
ASIC chips using TCAM IP of eSilicon and the model numbers
of seven ASIC chips, Huawei ignored Mr. Huang’s request, then
Mr. Huang filed first motion to compel the information on July
8, 2016(Dkt.76)(Appx951-955). In Hearing July27, 2016
Defendant Huawei and Magistrate Judge said no confidential
source code should be disclosed to Plaintiff Mr.Huang, then on
August 12, 2016 Mr. Huang filed second motion to compel
(Dkt.94) non confidential information including model numbers
of Huawei’s products using TCAM IP of eSilicon and
manufacture process in order to verify whether those products
are sold in the USA(Appx956-960). Magistrate Roy Payne
ordered: “The Court previously entered an Order staying this
case and all associated deadlines until September 28,
2016
(Dkt. Nos. 94...) are DENIED WITHOUT
PREJUDICE. Plaintiff may re-file these motions only after the
expiration of the stay.” in Dkt.99. On Octoberll, 2016 based
on Magistrate Judge Payne’s Order in Dkt.99 Plaintiff Mr.
Huang refiled second motion to compel as third motion to

28
compel to compel the non-confidential information. The third
motion to compel is a refiling of second motion to compel based
on Magistrate Payne’s Order Dkt.99. On October 24, 2016
Plaintiff Mr.Huang retained three outside independent experts
who signed undertaking protective order agreement,
basedonlO(e) of protective order, those experts can access the
“restricted, attorney eye only, confidential source code
information.” Plaintiff Mr. Huang sent the protective order
undertaking signed by independent experts to Defendant
Huawei and asked Defendant to disclose the requested
information to retained independent experts. Defendant
ignored Plaintiff s requests, The Plaintiff Mr. Huang filed
fourth motion on October28, 2016(Appx963-962). Defendant
Huawei used unreasonable cause and denied Plaintiff’s request.
On November 18, 2016 Huawei Counsel Torkelson sent
Plaintiff Mr. Huang email and stated that Broadcom allowed
Huang’s retained experts to access and review the confidential
source code of TCAM chip NSE5512 , Huawei Counsel also sent
email on November28, 2016 and acknowledge that based on
item 5(e), 9, 10(a) and 10(h) of Protective Order signed by
Magistrate Payne independent experts are allowed to access
confidential information. Based on the fact that Broadcom
allowed Plaintiff s retained experts to access its confidential
source code Plaintiff Mr. Huang filed fifth motion to compel
Huawei to allow his retained experts to access the source code
of eSilicon TCAM IP used in HiSicon ASIC chip of Huawei’s
networking products on November 28, 2016. The independent
expert should be given the same right with or without attorney
as long as signing the NDA or/and undertaking of protective
order since the independent expert is third party. Signing NDA
is the industrial common practice for all the professionals to
view the confidential source code. No any professionals who
access the confidential source code daily are supervised by a
lawyer. Both attorney and experts are retained by Plaintiff or

29
Defendant, all qualified professional experts should be given
same right as constitutional law requires no matter under
lawyer’s supervision or not.
IV CONCLUSION
The petition for a writ of certiorari should be granted.
Dated: OctobertlO, 2020

Respectfully Submitted,
Xiaohua Huang

P.O. Box 1639, Los Gatos, CA95031
Email: xiaohua_huang@hotmail.com

